HHS/OIG-Audit--"Review of Facility Purchases by the Head Start Program
During Fiscal Years 1993 and 1994, (A-09-94-00085)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Facility Purchases by the Head Start Program During Fiscal
Years 1993 and 1994," (A-09-94-00085)
June 13, 1996
Complete
Text of Report is available in PDF format (1.5 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a number of issues the Administration for Children
and Families (ACF) needs to address with regards to facility purchases by Head
Start grantees. To help ACF address these issues we are recommending, among
other things, that ACF; provide technical assistance to grantees acquiring
or planning to acquire facilities, require that property inspection reports
submitted by grantees include the results for environmental hazards, require
grantees to disclose any restrictions on the use of the facilities imposed
by organizations providing supplemental funding, ensure that all necessary
documentation, such as property appraisals and inspection reports be submitted
prior to making grant awards, ensure that purchase requests describe all renovations
that need to be made to the property, require grantees considering loans with
balloon payments to disclose these plans, and explain how the balloon payment
obligation will be met, and develop and implement a system to account for Head
Start funds utilized for each facility purchased. The ACF generally concurred
with our recommendations.